                                    December 3, 1999

                                    DEBORAH K. WILLHITE
                                    SENIOR VICE PRESIDENT, GOVERNMENT RELATIONS

                                    SUBJECT:	 Cost and Benefit of the International Collection
                                              Program (Report Number RG-MA-00-001)

                                    This management advisory report summarizes the results of
                                    our review of the financial performance of the United States
                                    Postal Service’s International Collection Program. We
                                    conducted the review based on a congressional request.

Results in Brief	                   The review disclosed that costs for the International
                                    Collection Program exceeded commissions earned under the
                                    program by               during the period January 19971
                                    through September 1999. We also found that 98 percent of
                                    the marketing and administrative costs of selling international
                                    stamps had not been charged to the program in the Postal
                                    Service accounting system.

                                    Program managers stated that the economic benefits were
                                    not the primary objective of the program and that the
                                    program had other objectives, which offered other, less
                                    tangible benefits to the Postal Service. While our review
                                    focused primarily on the costs and revenues of the program,
                                    we identified documentation, which suggested that some of
                                    the less tangible benefits appeared to have been partially
                                    achieved.

                                    We offered management two suggestions for improvement.
                                    Stamps Services management agreed with our suggestions.
                                    Management stated that they did not contest the financial
                                    aspect of the review but reiterated that, beyond revenue
                                    generation, the primary objective for the program was to
                                    create awareness and invest in the future of the hobby of
                                    stamp collecting. Management’s comments are included in
                                    their entirety in Appendix B.

1
    The inception of the program.
International Collection Program                                                  RG-MA-00-001




Background                     The Postal Service Stamp Services Division manages the
                               International Collection Program. Its mission is to provide
                               stamps to the general public in a reliable and efficient
                               manner, while promoting goodwill and generating
                               incremental revenue for the Postal Service.

                               Beginning in 1978, the Postal Service contracted with
                               agents and foreign postal administrations to act as sales
                               agents for Postal Service stamps and philatelic products in
                               exchange for commissions. It was not until 1997, when the
                               Stamp Services Division established the International
                               Collection Program, that the Postal Service began entering
                               into agreements to act as an "agent" for foreign postal
                               administrations to market their stamps and stamp products
                               to Postal Service customers.

                               In support of the program, the Stamp Services Division
                               began marketing the International Collection Program as
                               part of the1997 summer issue of the USA Philatelic catalog,
                               which was previously used only to market Postal Service
                               stamps. The catalog featured stamps from Great Britain,
                               Ireland, and Canada. In the spring of 1999, Stamp Services
                               started issuing a separate catalog for the International
                               Collection. The summer 1999 issue of the catalog featured
                               stamps from Australia, Israel, Ireland, Great Britain,
                               Canada, Mexico, and the United Nations.

                               The catalog provides for orders to be placed by mail,
                               facsimile, and telephone; and be fulfilled through the
                               Kansas City Stamp Fulfillment Services.

Objective, Scope, and          The objective of this review was to determine the financial
Methodology                    performance of the International Collection Program.
                               Specifically, we identified the revenue generated through
                               International Collection Program and associated costs to
                               determine if the program had generated a profit or loss
                               since its inception. We interviewed Postal Service
                               Headquarters and field officials and visited the Kansas City
                               Stamp Fulfillment Services facility, where stamp orders
                               were fulfilled. Also, we reviewed revenue, cost, and
                               payment reports; and invoices and mailing statements
                               pertaining to this program from its inception through
                               September 1999.



                                                   2
                                        Restricted Information
International Collection Program                                                                       RG-MA-00-001



                                  The review was conducted from October 1999 through
                                  November 1999 in accordance with the President’s Council
                                  on Integrity and Efficiency, Quality Standards for
                                  Inspections.

Costs Exceeded                    The review disclosed that the International Collection
Revenue Earned                    Program costs exceeded commissions earned under the
                                  program by                since its inception in January 1997
                                  through September 1999. In addition, we determined that
                                  98 percent of the costs for administering and marketing
                                  international stamps had not been charged to the finance
                                  number established for the program in the Postal Service
                                  accounting system.

                                  The International Collection Program earned about
                                                in commissions--approximately           percent
                                  of the $4.90 million in international stamp sales since the
                                  program’s inception. For the same period, we determined
                                  that the costs for the International Collection Program
                                  totaled about $5.35 million. These costs included
                                  $4.46 million for designing, printing, and mailing of the
                                  catalog and over $850,000 for direct labor costs, bank
                                  charges, and administrative costs.2 The following chart
                                  shows the revenue and costs associated with the
                                  International Collection Program over the period January
                                  1997 through September 1999.


                                                           International Collection Program
                                                                 Cost Benefit Analysis

                                      $4,000,000
                                                                            $3,031,746
                                      $3,000,000
                                                                                                  $1,537,909
                                      $2,000,000
                                                        $779,987     $598,543               $807,397
                                      $1,000,000
                                                  $64,561
                                            $-
                                     $(1,000,000)
                                                            $(715,426)                                 $(730,512)
                                     $(2,000,000)
                                                                                 $(2,433,203)
                                     $(3,000,000)
                                                          FY 1997 (3)          FY 1998              FY 1999

                                                               REVENUE             COST             LOSS



2
 : The table in Appendix A shows a more detailed description of the revenues, costs, and loss for the International
Collection Program.
3.
   Since the program’s inception.




                                                          3
                                               Restricted Information
International Collection Program	                                                  RG-MA-00-001



                               Postal Service management stated that costs, such as
                               those for catalog design, printing, and mailing ($4.46 million)
                               had not been charged to the International Collection
                               Program because they were charged to the Direct
                               Marketing Program where catalog costs were budgeted.
                               They also stated that certain operating costs, such as bank
                               and phone charges would have been incurred even without
                               the program. However, because these bank and phone
                               charges were based on the number of calls and method of
                               payments and some calls and payments could have been
                               exclusively for international stamps, we have included a
                               portion of these charges in the International Collection
                               Program costs. We excluded some costs from the program,
                               such as rent and utilities, because we recognized that they
                               would continue even if the program were canceled.
                               Also, we noted that as of September 30, 1999, $1.83 million
                               worth of international stamps remained in inventory at the
                               Kansas City Stamp Fulfillment Services facility. We found
                               that over $14,000 was incurred in the fourth quarter of fiscal
                               year (FY) 1999 for returning stamp stock to the appropriate
                               countries. If the program were discontinued, the Postal
                               Service would incur additional costs for returning the stock
                               to the appropriate countries or destroying the inventory.
                               While costs exceeded the commissions for the International
                               Collection Program, Stamp Services management
                               emphasized that economic benefits were not the primary
                               objective of the program. In this regard, we noted that the
                               February 1999 (revised October 1999) International
                               Collection business plan did not contain any revenue
                               projections and instead focused on the following objectives:
                               •	 Stimulate interest in the collecting hobby by expanding
                                  the number and variety of products available to our
                                  customers;
                               •	 Increase philatelic sales revenue by encouraging current
                                  domestic customers to collect in different ways; and
                               •	 Foster cooperative working relationships with other
                                  countries' postal administrations to promote and expand
                                  the hobby of stamp collecting worldwide, developing and
                                  preserving the philatelic market of the future.




                                                   4
                                        Restricted Information
International Collection Program                                                               RG-MA-00-001




                               Our review focused primarily on the costs and revenues of
                               the program; however, we noted that a number of the
                               objectives appeared to be partially achieved, but at a loss to
                               the Postal Service.

                               For example, the International Collection Program increased
                               the variety of products available to Postal Service
                               customers and increased the Postal Service’s gross
                               revenue. However, as previously stated, the $5.35 million in
                               costs for the program exceeded its                 in
                               commissions, resulting in a loss of               . Further,
                               we noted that the actual and calculated costs for the
                               International Collection Program had exceeded its $534,400
                               budget since inception through September 1999, by
                               $4.82 million.

                               The following chart shows the budgeted costs compared to
                               the actual costs we identified and calculated.


                                            International Collection Program
                                          Budgeted vs. Actual/Calculated Costs

                                   $4,000,000
                                                                           $3,031,746
                                   $3,000,000
                                   $2,000,000                                              $1,537,909
                                                $779,987
                                   $1,000,000                              $326,400
                                                           $118,000                          $90,000
                                           $-
                                                   FY 1997            FY 1998            FY 1999

                                                    Bud g eted                  A ctual/Calcu lated


                               Regarding the objective of fostering cooperative working
                               relationships, Stamp Services management stated that four
                               of seven foreign postal administrations doing business with
                               the Postal Service under this program commented that it
                               had benefited them by increasing awareness and sales of
                               their stamps. Although the program may have provided
                               some non-financial benefits to the Postal Service, it is the
                               Postal Service's mission to provide efficient services to the
                               public.

                               As part of our review, we determined that Title 39, sections
                               404 (a)(5) and (b) authorize the Postal Service to provide



                                                     5
                                          Restricted Information
International Collection Program	                                                  RG-MA-00-001



                               philatelic services and special non-postal or similar services.
                               However, there is proposed legislation, H.R. 198, which
                               would prohibit the Postal Service from offering “commercial
                               non-postal services.” This legislation, if passed, may affect
                               Postal Service’s ability to continue this program.

Suggestions                    We offer the following suggestions to the senior vice
                               president, Government Relations:

                               1. Consider the financial performance of the International
                                  Collection Program in determining whether to continue
                                  the program in the future.

                               2. 	If the program is continued, prepare a business plan that
                                   includes revenue and cost projections and ensure that
                                   costs for the program are charged to its finance number
                                   in the Postal Service accounting system.

Management’s                   Stamp Services management agreed with our suggestions.
Comment                        Management stated that they did not contest the financial
                               aspect of the review but reiterated that, beyond revenue
                               generation, the primary objective for the program was to
                               create awareness and invest in the future of the hobby of
                               stamp collecting.

Evaluation of                  Management's comments are responsive to our
Management’s                   suggestions.
Comment

                               We appreciated the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact                or me at (703) 248-2300.



                               Sylvia L. Owens
                               Assistant Inspector General
                                for Revenue Cost Containment

                               Attachment

                               cc: 	James C. Tolbert
                                    John R. Gunnels




                                                   6
                                        Restricted Information
International Collection Program                               RG-MA-00-001




                                              7             Appendix A
                                   Restricted Information
International Collection Program                                RG-MA-00-001




                                              8             Appendix B
                                   Restricted Information
International Collection Program                                RG-MA-00-001




Major Contributors




                                              9             Appendix B
                                   Restricted Information
